No. 21-

IN THE SUPREME COURT OF THE UNITED STATES

Matthew David George
Petitioner
vs,
State of Ohio

Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

By: Sean Buchanan (#0084569)
931 Franklin Avenue

KENT, OH 44024

Phone: (380) 554-1265
Attorney for Petitioner

Trumbull County Prosecutor’s Office
160 High Street, N.W. #4

Warren, OH 44481

(330) 675-2426

Attorney for
Respondent
The petitioner's affidavit is not attached because the court below appointed

counsel in the current proceeding, and a copy of the order of appointment is
appended.

Respectfally submitted,

SEMN C. BUCHANAN (#0084569)
Attorney for Matthew David
George

931 Franklin Avenue

Kent, OH 44024

(830) 554-1265 — Phone

Email: seancbuchanan@gmail.com
 

 

 

STATE OF OHIO ) IN THE COURT OF APPEALS
) Ss.
COUNTY OF TRUMBULL) ELEVENTH DISTRICT
STATE OF OHIO, MAGISTRATE’S ORDER
Piaintiff-Appellee,
CASE NO. 2020-T-0025
-VS-
MATTHEW DAVID GEORGE,

Defendant-Appellant.

Attorney Mary Ellen Ditchey’s May 22, 2020 motion to withdraw as counsel for
appellant and to appoint new counsel is hereby granted. Attorney Sean C.
Buchanan, One Cascade Plaza, 22" Floor, Akron, OH 44308, is appointed as
counsel to represent appellant for purposes of appeal.

It is further ordered sua sponte that the transcript of proceedings is granted at
state’s expense. The clerk of courts is instructed to serve the court reporter with a
time-stamped copy of this order.

The appeal has been assigned to the court's regular calendar.

Newly appointed counsel is granted thirty (30) days from the date of this order
to file appellant's brief.

The clerk of courts is instructed to serve appellant, Matthew David George,

13685 Equestrian Road, Burton, OH 44021, with a time-stamped copy of this order.

FILED
COURT OF APPEALS

JUN 17 2020 MAGISTRATE SHIBANI SHETH-MASSACCI

TRUMBULL COUNTY, OH
KAREN INFANTE ALLEN, CLERK

 

et A NI I A RM ROR Bm nnn nner yuan ra ————
